No. 21____________________________________________________________________
___________________________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
________________________________________________
DAVID BLASZCZAK,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
______________________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
__________________________________________________________________
PETITION FOR A WRIT OF CERTIORARI
__________________________________________________________________
COLLEEN P. CASSIDY
Counsel of Record
FEDERAL DEFENDERS OF NEW YORK, INC.
APPEALS BUREAU
52 Duane Street, 10th Floor
New York, New York 10007
Tel. No.: (212) 417-8742
Email: colleen_cassidy@fd.org
Attorney for Petitioner.

QUESTIONS PRESENTED

1. Whether information about a proposed government regulation is
“property” and a “thing of value” belonging to the regulatory agency such that its
disclosure can constitute the federal crimes of fraud or conversion.

2. Whether this Court’s holding in Dirks v. SEC, 463 U.S. 646 (1983), that
insider trading fraud requires proof of a breach of duty for a personal benefit,
applies equally to insider trading fraud charged under Title 18 and Title 15, which
proscribe fraud in virtually identical language.

ii

PARTIES TO THE PROCEEDING
Petitioner David Blaszczak and Robert Olan, Theodore Huber and
Christopher Worrall were defendants in the Court of Appeals.
Respondent United States of America was appellee in the Court of Appeals.
RELATED PROCEEDINGS
The proceedings directly related to this petition are:
United States v. David Blaszczak, Theodore Huber, Robert Olan, Christopher
Worrall, Nos. 2018-2811, 2018-2825, 2018-286, and 2018-2878 (consolidated) (2d
Cir.), consolidated judgment entered on December 30, 2019; and
United States of America v. David Blaszczak, Theodore Huber, Robert Olan,
Christopher Worrall, No. 17 CR 357 (LAK) (S.D.N.Y.), judgments as to Robert
Olan and Theodore Huber entered on September 21, 2018.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
OPINIONS AND ORDERS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
The Government’s Theory and Charges . . . . . . . . . . . . . . . . . . . . . . 7
The Trial . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
The Jury Instructions and Verdict . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
The Court Of Appeals’ Affirmance of the Convictions . . . . . . . . . . 13
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
I.

The Second Circuit’s Ruling that Government Regulatory
Information Constitutes Government “Property” and a “Thing of
Value” Conflicts With This Court’s decisions in Cleveland and
Kelly and Greatly Expands Criminal Liability Without an Act of
Congress. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
iv

II.

The Second Circuit’s Ruling that the Established Insider Trading
Elements Do Not Apply to Insider Trading Fraud Charged Under
Title 18 Conflicts With Decades of This Court’s Precedents and
Dramatically Expands Criminal Liability For Information
Sharing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

v

TABLE OF AUTHORITIES
CASES
Carpenter v. United States, 484 U.S. 19 (1987) . . . . . . . . . . . . . . . . . . . . . . passim
Chiarella v. United States, 445 U.S. 222 (1980) . . . . . . . . . . . . . . . . . . 5, 24, 25, 27
Cleveland v. United States, 531 U.S. 12 (2000) . . . . . . . . . . . . . . . . . . . . . . passim
Dirks v. SEC, 463 U.S. 646 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Envtl Defense V. Duke Energy Corp., 549 U.S. 561 (2007) . . . . . . . . . . . . . . . . . 26
Fountain v. United States, 357 F.3d 250 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . . . 15
Kelly v. United States, 140 S. Ct. 1565 (2020) . . . . . . . . . . . . . . . . . . . . . . . passim
McDonnell v. United States, 136 S. Ct. 2355 (2016) . . . . . . . . . . . . . . . . . 6, 19, 20
McNally v. United States, 483 U.S. 350 (1984) . . . . . . . . . . . . . . . 6, 19, 20, 22, 28
Neder v. United States, 527 U.S. 1 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
O’Hagan v. United States, 521 U.S. 642 (1997) . . . . . . . . . . . . . . . . . . . . . . passim
Pasquantino v. United States, 544 U.S. 349 (2005) . . . . . . . . . . . . . . . . . . . . 15, 26
Salman v. United States, 137 S. Ct. 420 (2016) . . . . . . . . . . . . . . . . . . . . . 5, 23, 24
Skilling v. United States, 561 U.S. 358 (2010) . . . . . . . . . . . . . . . . . . . . . . 6, 19, 20
United States v. Blaszczak, 947 F.3d 19 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
United States v. Girard, 601 F.2d 69 (2d Cir. 1979) . . . . . . . . . . . . . . . . . . . . . . . 15

vi

STATUTES AND OTHER AUTHORITIES
15 U.S.C. § 78j(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
15 U.S.C. § 78ff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
18 U.S.C. § 641 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 8
18 US..C. § 1343 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5 , 8, 24
18 U.S.C. § 1348 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 8, 24
17 C.F.R. § 240.10b-5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Securities and Exhibit Act of 1934 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

vii

OPINIONS AND ORDERS BELOW
The opinion for the United States Court of Appeals for the Second Circuit
and the dissent is reported at 947 F.3d 19, and appears at Pet. App. 1a-31a. The
District Court did not issue a written opinion on the questions presented. The
Second Circuit’s order denying rehearing en banc appears at Pet. App. 32a. Its
order denying panel rehearing appears at Pet. App. 33a.
JURISDICTION
The District Court had jurisdiction under 18 U.S.C. § 3231. It entered
judgment on September 21, 2018, and denied rehearing on April 10, 2020. The
Second Circuit had jurisdiction under 18 U.S.C. § 3742(a) and 28 U.S.C. §
1254(1). This Court has jurisdiction under 28 U.S.C. §1254(1).
RELEVANT STATUTORY PROVISIONS
Section 1343 of Title 18 of the United States Code prohibits the devising of
“any scheme or artifice to defraud, or for obtaining money or property by means of
false or fraudulent pretenses, representations, or promises,” that is executed “by
means of wire, radio or television communications.”
Section 1348 of Title 18 of the United States Code prohibits the execution of
“a scheme or artifice – to obtain by means of false or fraudulent pretenses,
representations, or promises, any money or property in connection with the
1

purchase or sale” of “any security of an issuer with a class of securities registered
under section 12 of the Securities and Exchange Act of 1934” and that is required
to file reports under section 15(d) of the Act.
Section 641 of Title 18 makes it a crime to “embezzle[], steal[], purloin[], or
knowingly convert[] any record, voucher, money, or thing of value of the United
States or of any department or agency thereof.”
STATEMENT OF THE CASE
A divided panel of the Second Circuit made two important rulings that
greatly expand criminal liability in ways that contravene decades of this Court’s
jurisprudence meant to contain such expansion.
The first important issue is the majority’s unprecedented ruling, over a
strong dissent by Judge Kearse, that confidential information about proposed
government regulatory changes is “property” under the fraud statutes and “a thing
of value” in the government’s hands under 18 U.S.C. § 641, so that someone who
conveys or receives such information is guilty of fraud or conversion just as if they
received stolen government funds. Pet. App. 13a-16a. This holding is contrary to
this Court’s decisions in Cleveland v. United States, 531 U.S. 12 (2000), and Kelly
v. United States, 140 S. Ct. 1565 (2020) just decided last term after the Second
Circuit decided this case and denied rehearing.
2

The panel majority rejected the defendants’ contention that government
regulatory information is not “property” under Cleveland because it has no
economic value and is a function of the government’s regulatory role as a
sovereign, not a property holder. The majority instead relied on Carpenter v.
United States, 484 U.S. 19, 25-26 (1987), which held that a newspaper’s
“confidential business information” in articles before publication was property – its
“stock in trade” “to be distributed and sold.” Pet. App. 14a. Based on Carpenter’s
holding with respect to proprietary business information, the majority ruled that the
government’s “right to exclude” the public from its information and its investment
of resources to maintain confidentiality made the information “property.” Pet.
App. 15a-16a.
Judge Kearse dissented on the ground that this case was squarely governed
by Cleveland because the government information had no economic value and the
government’s role as a property holder was not implicated. Pet. App. 28a-30a.
Unlike the newspaper business in Carpenter, Judge Kearse reasoned, the
government was not selling information, but simply regulating. Pet. App. 29a.
After the Second Circuit denied rehearing, this Court decided Kelly, 140 S.
Ct. 1565, which adopted Judge Kearse’s reading of Cleveland and rejected the
reasoning of the Circuit majority that the “right to exclude” created a property
3

interest and that government employee resources spent maintaining confidentiality
created an economic interest in the information. Kelly held that the government’s
rights of “allocation, exclusion, and control” of access to government resources
involve a “quintessential exercise of regulatory power,” not property rights, and
that employee time spent to keep information confidential does not create a
“property” interest where the employee time was incidental to the scheme and not
its object. Id. at 1572-74. As Judge Kearse explained in dissent, if government
regulatory information is not “property,” it cannot be “thing of value” under
section 641, and all of the counts must be vacated. Pet. App. 28a, 30a-31a.
The second important ruling is the Second Circuit’s adoption of a novel
theory of insider trading fraud under Title 18 that sweeps away the longstanding
elements of insider trading established by this Court. The panel majority affirmed
the convictions of the defendants for wire fraud and securities fraud in violation of
18 U.S.C. §§1343 and 1348 on the government’s new theory that tipping and
trading on government information constitutes “fraud” under these statutes without
the elements of breach of confidential duty for a personal benefit required for an
insider trading conviction under Dirks v. SEC, 463 U.S. 646 (1983). Those
elements were charged in the Title 15 counts covering the same conduct, and the
jury acquitted all the defendants of all insider trading charges under Title 15. As a
4

novel backup, however, the very same conduct was charged as a scheme to defraud
under the Title 18 fraud sections – which contains the same language as Title 15 –
and the government convinced the district court that the Title 18 fraud offenses did
not require proof that a duty of confidence was breached for a personal benefit.
The jury, freed of the need to find the insider trading elements, convicted
Blaszczak and his codefendants of several counts of wire fraud and securities fraud
under 18 U.S.C. §§1343 and 1348.
The panel majority affirmed on the ground that the personal benefit
requirement is not in the texts of any of the statutes, but is a “judge-made doctrine”
that is unique to Title 15. It ignored Dirks’ holding that a breach of duty for a
personal benefit is required to establish that insider trading constitutes “fraud,”
Salman v. United States, 137 S. Ct. 420, 427 (2016); Carpenter v. United States,
484 U.S. 19, 27-28 (1987); Dirks, 463 U.S. at 662 and that the texts of Title 18 and
Title 15 proscribe “fraud” in virtually identical terms. This Court has long held that
tipping or trading on tipped information does not constitute fraud at all unless the
tipper breached a fiduciary duty to the source of the information to obtain a
personal benefit. O’Hagan v. United States, 521 U.S. 642, 653-54 (1997); Dirks v.
SEC, 463 U.S. at 662; Chiarella v. United States, 445 U.S. 222, 233. The Second
Circuit’s ruling upends decades of this Court’s jurisprudence carefully delineating
5

the stringent requirements to establish fraud by tipping or trading on inside
information.
This decision not only “conflicts with relevant decisions of this Court,” Sup.
Ct. R. §10(c). If it stands, it will have an enormous impact on the administration of
justice and a chilling effect on relations between government and constituents. Any
leak of information from a government agency can now be charged as conversion.
And any tipping of information or trading on tips from any source can be
prosecuted as Title 18 insider trading fraud, regardless of whether a duty of
confidence was breached in exchange for a personal benefit. As the majority
opinion acknowledged, the government need no longer bother charging traditional
insider trading; it need only charge the same conduct as Title 18 fraud and dispense
with the insider trading elements. Pet. App. 37a. The majority concluded that such
“policy considerations” were not its concern. Pet. App. 37a. They should, however,
concern this Court, which has restrained before the government’s novel use of
existing statutes to expand the scope of the criminal law without an act of
Congress. See McDonnell v. United States, 136 S. Ct. 2355, 2372 (2016); Skilling
v. United States, 561 U.S. 358, 409-11 (2010); McNally v. United States, 483 U.S.
350 (1984). Because the overwhelming majority of insider trading cases are
brought in the Southern District of New York, this decision will have an outsized
6

impact on the enforcement of securities law and the securities industry in general.
This case is an ideal vehicle to stop judicial expansion of criminal liability
for leaks and information sharing that does not constitute insider trading. The
impact of the novel use of the Title 18 fraud statutes could not be clearer: each
defendant was acquitted of all Title 15 insider trading charges, which properly
required proof of a breach of a duty of confidence in exchange for personal benefit.
They were only convicted of offenses based on tipping and trading charged under
the Title 18 wire fraud and securities fraud sections, for which the court did not
require proof of those elements. Likewise, on the “property” question, if
government information is not property, none of the convictions can stand.
The Government’s Theory and Charges
The government alleged that David Blaszczak, a consultant who advised
investors in the healthcare industry and tried to predict regulatory changes,
obtained nonpublic information about proposed regulatory changes promulgated
by the Center for Medicare and Medicaid Services (“CMS”) from his friend and
former colleague at CMS, David Worrall, and passed them on in his predictions to
his client Deerfield Management, specifically cooperating witness Fogel, who
shared some of them with co-defendants Theodore Huber and Robert Olan. Pet.
App. 8a. It charged Blaszczak with obtaining and transferring non-public
7

information from CMS in this way about two proposed reimbursement rule
changes, in radiation oncology and ESRD. Pet. App. 9a. Blaszczak and Worrall
were also charged with the same conduct with respect to a third rule change in
NxStage reimbursement but were both acquitted of all charges related to that rule.
Pet. App. 11a-12a.
The same basic conduct was charged in three different ways: as insider
trading securities fraud in violation of 15 U.S.C. §§ 78j(b) & 78ff and 17 C.F.R. §
240.10b-5 (counts 4-8 and 14); as wire fraud in violation of 18 U.S.C. §1343
(counts 9,12, and 15); as securities fraud in violation of 18 U.S.C. § 1348 (counts
10 and 16); and as conversion of government property in violation of 18 U.S.C. §
641 (counts 3, 11, and 13). Pet. App. 8a, 11a. Two conspiracies were also charged
against all four defendants, one to convert government property, commit Title 15
securities fraud, and defraud the United States in violation of 18 U.S.C. § 371
(count 1) and one to commit wire fraud and Title 18 securities fraud in violation of
18 U.S.C. § 1348. Pet. App. 11a.
In addition, Blaszczak was charged alone with conversion and conspiracy to
convert information about another CMS rule by obtaining information about
another proposed rule from an unidentified CMS source and using it to predict a
change in the home health care rule to a different hedge fund analyst, at Visium,
8

who cooperated with the government on this case and others. Pet. App. 8a, 10a11a.
The Trial
The evidence established that Blaszczak had worked for CMS, had many
friends and contacts there, and was hired for his advice about upcoming CMS
regulatory changes by clients who invested in the health care industry, including
Deerfield. Pet. App. 8a-9a. CMS shared information and data underlying its rules
changes with the pubic and industry stakeholders, through formal and informal
meetings. C.A. App. 515-16, 474-76, 849-51. Its goal was to share the data used in
its rate-setting process, “so the public could replicate the changes to the rates that
CMS [was] proposing or has adopted.” C.A. App. 850. CMS kept the text of any
proposed rule change confidential until it was published. C.A. App. 465, 840.
In May, 2012 Blaszczak predicted forthcoming rate changes in radiation
oncology reimbursement to Fogel, who shared the information with Huber and
Olan, and Deerfield subsequently shorted stock in companies that would be
affected by the rule change. Pet. App. 9a. Blaszczak’s prediction was partially
accurate, but partly wrong. Pet. App. 24a-25a. He accurately predicted the size of
the cuts, which were recommended by the relevant medical society in published
articles, but he incorrectly predicted that they would apply to all facilities. The
9

published proposed rule did not apply to most facilities. C.A. App. 578-79, 659668, 2567-2570. The evidence that Blaszczak’s prediction came from Worrall
consisted of Blasczczak’s friendship with Worrall, who still worked at CMS
(although not on the radiation oncology rule) and the fact that Blaszczak and
Worrall met for lunch at CMS on May 8, the day before Blaszczak emailed Fogel
to say he had an update on the radiation oncology rule. Pet. App. 9a, 25a. There
was no evidence that Worrall received a penny from Blaszczak and no one at
Deerfield even knew who Worrall was. C.A. App. 556, 1010.
In June, 2013, Blaszczak accurately predicted to Fogel the proposed rate cut
in ESRD treatments but was wrong about the phase-in period, and Fogel thereafter
shorted stock in the affected companies. Pet. App. 9a-10a, 24a-25a. C.A. App.
580-82, 585. The government’s evidence that Worrall was the source of this
information was, in addition to his friendship with Blaszczak, the fact that he
worked on the underlying data that justified the rule change, which was publicly
disclosed. C.A. 491-92, 495-96. The jury acquitted Worrall of all charges based on
the ESRD rule. Pet. App. 11a-12a.
A small portion of the trial, at the very end, was devoted to the charges that
Blaszczak converted and conspired to convert CMS information when he predicted
the home healthcare reimbursement cut in 2013 to Christopher Plaford at a
10

different hedge fund, Visium. Plaford, who had pled guilty to crimes beyond the
conversion in this case, testified that Blaszczak predicted the range of the rate cut
and said that it was based on his interactions with unidentified CMS people
working on the rule at CMS. Pet. App. 10a. Plaford had already shorted stocks in
anticipation of that cut, but testified that he maintained his short based on
Blaszczak’s prediction. Pet. App. 10a. No specific CMS source of this information
was ever alleged.
Blaszczak’s defense was that he did not obtain confidential non-public
information from Worrall or any unauthorized government sources. Pet. App. 24a25a. The evidence established that much of CMS’s data and thinking was shared
with the public and particularly with stakeholders in the health care industry, both
formally and informally. Blaszczak contended that his predictions about rules
changes came from various public sources, including independent studies that
CMS relied on, the agency’s own voluntary and published disclosures, and his own
long experience in the health care field, including working at CMS. Pet. App. 24a27a.
The Jury Instructions and Verdict
The district court rejected the defense contention, based on Cleveland, 531
U.S. 12, that government regulatory information could not be considered
11

“property” and that therefore the evidence was insufficient to prove fraud under the
Title 18 or conversion of a “thing of value” under section 641. Pet. App. 13a. It
charged to the jury the government theory that CMS’s information about
regulatory changes was its “property” and “thing of value.”
On the Title 15 charges, the jury was instructed that it could convict only if
it found all the elements of insider trading: that Worrall had a duty of trust and
confidence to his employer that he breached by revealing material non-public
information to Blaszczak in exchange for a personal benefit and that each tippee
knew that. Pet. App. 11a. With respect to the Title 18 wire fraud and securities
fraud counts, however, the district court refused to instruct the jury on the need to
find that an insider breached his duty of confidence in exchange for a personal
benefit and that the others knew this. Pet. App. 11a.
Instead, the court allowed the jury to convict each defendant of wire fraud if
it found “the fraudulent appropriation to oneself of the money or property entrusted
to one’s care by someone else.” Pet. App. 11a. The jury was allowed to convict
each defendant of securities fraud if it found that he engaged in “a scheme to
embezzle or convert confidential information from CMS by wrongfully taking that
information and transferring it to his own use or the use of someone else.” Pet.
App. 11a.
12

Significantly, the jury acquitted all defendants of all the insider trading
charges under Title 15. Pet. App. 11a. The jury convicted the defendants of some
of the wire fraud and securities fraud charges based on the same conduct of tipping
and trading on non-public information. Pet. App. 11a-12a. All four defendants
were convicted of either Title 18 wire fraud or securities fraud, or both, based on
the radiation oncology prediction. Notably, Worrall (the alleged insider source)
was acquitted of all charges relating to the ESRD prediction, but Blaszczak was
convicted of wire fraud with respect to that prediction. Pet. App. 11a-12a.
The jury also convicted all four defendants of conversion with respect to the
radiation oncology rule prediction and convicted Blaszczak of conversion with
respect to the ESRD rule prediction and the home health care rule change predicted
to Visium. Pet. App. 11a-12a.
The Court Of Appeals’ Affirmance of the Convictions
Blaszczak and his codefendants appealed the convictions on the grounds,
inter alia, 1) that fraud by insider trading, whether charged under title 15 or 18,
required proof that the insider’s duty of confidence was breached for a personal
benefit and the tippees knew that, and 2) that regulatory information does not
constitute government property or a thing of value under this Court’s decision in
Cleveland, 531 U.S. 12.
13

A divided panel of the Second Circuit held that regulatory information may
be considered “property” in the hands of the government. Pet. App. 14a-16a.
Rather than following Cleveland, the majority instead relied on this Court’s
holding in Carpenter, 484 U.S. at 26, that the contents of the Wall Street Journal’s
articles before publication was property because the Journal had “a property right
in keeping confidential and making exclusive use” of the information before it was
published. Pet. App. 14a-15a. The Circuit majority quoted Carpenter’s reasoning
that the Journal’s prepublication information was “stock in trade, to be gathered at
the cost of enterprise, organization, skill, labor and money, and to be distributed
and sold to those who [would ] pay money for it.” Pet. App. 14a, quoting
Carpenter, 484 U.S. at 26. Although CMS was not a business, but a government
regulatory agency, and its regulatory information was not its “stock in trade” to “be
sold to those who would pay money for it,” the majority decided that
Carpenter controlled this case rather than Cleveland, 531 U.S. at 22-22, which held
that government licenses are not property because they are a function of its
regulatory role as a sovereign and not its economic role as a property holder. Pet.
App. 14a-15a.
Acknowledging that “Cleveland remains good law,” the Court of Appeals
cited its own opinion in Fountain v. United States, 357 F.3d 250, 256 (2d Cir.
14

2004) that “Cleveland had only a modest effect on the existing legal landscape,”
and read the holding of Pasquantino v. United States, 544 U.S. 349, 357 (2005),
that tax revenue is “property,” as limiting the reach of Cleveland. Pet. App. 14a.
The Second Circuit majority concluded that CMS’s “right to exclude” others from
its information was “comparable” to the Wall Street Journal’s proprietary rights to
its stories in Carpenter and therefore “squarely implicates the government’s role as
property holder.” Pet. App. 15a. The majority also construed the “time and
resources” that CMS “invest[ed]” in “generating and maintaining the
confidentiality of nonpublic predecisional information” as creating an economic
interest, as well as a regulatory interest, in confidentiality. Pet. App. 15a.
Having held that CMS’s regulatory information was “property” regardless of
Cleveland, the majority went on to hold that it was also a “thing of value” under
section 641, following its 40-year-old holding that stolen government records
about DEA informants was a “record” under the statute but the information could
also be a “thing of value.” United States v. Girard, 601 F.2d 69, 71 (2d Cir. 1979).
Pet. App. 21a.
On the Title 18 insider trading convictions, the Circuit majority held that the
elements of insider trading established in Dirks do not apply to the Title 18 fraud
provisions. Pet. App. 17a-18a. It concluded that the breach of duty of confidence
15

for a personal benefit requirement was a “judge-made doctrine premised on the
Exchange Act’s statutory purpose” of eliminating the use of inside of inside
information for personal advantage, and was unique to that statute. Pet. App. 17a18a. Citing a footnote in a concurrence in O’Hagan, 521 U.S. at 682 n.1, the
majority held that the embezzlement theory recognized in Carpenter included “no
additional requirement that an insider breach a duty to the owner of the property,”
let alone that “an insider tipped confidential information in exchange for a personal
benefit.” Pet. App. 18a.
As support for the proposition that fraud by insider trading is broader under
Title 18 than Title 15, the Circuit majority cited, without elaboration, a statement in
the legislative history of section 1348 (the Sarbanes-Oxley Act of 2002) to the
effect that it was meant to “supplement the patchwork of existing technical and
securities law violations with a more general and less technical provision.” Pet.
App. 18a. It did not explain how this applied to the similarly-worded fraud
provision in section 1343, which has been on the books since 1952, but has only
now been used to prosecute insider trading without the insider trading elements.
Finally, the Circuit majority acknowledged that the government could now
prosecute all insider trading cases under the general fraud statutes and avoid the
Dirks elements of insider trading, but declined to rest its interpretation of the fraud
16

statutes “on such enforcement policy considerations.” Pet. App. 19a.
Judge Kearse dissented from the holding that CMS regulatory information
could be “property” or a “thing of value,” in an opinion that would have vacated all
counts of conviction on this ground. Pet. App. 28a-31a. Judge Kearse concluded
that this case was squarely governed by Cleveland, not Carpenter, and that
information about “a planned CMS regulation” is not “property” or a “thing of
value.” Pet. App. 29a. Noting that “CMS is not a business; it does not sell, or offer
for sale, a service or a product; it is a regulatory agency,” Judge Kearse reasoned
that “[u]nlike the information that was planned for publication by the news
publisher victim in Carpenter, information is not CMS’s ‘stock in trade... CMS
does not seek buyers or subscribers; it is not in competition; it is an agency of the
government that regulates the conduct of others.’” Pet. App. 29a. Like the licenses
in Cleveland, CMS’s information is a function of its role as a regulator, not as a
buyer or seller of property. Crucially, Judge Kearse noted that CMS regulates
“whether or not any information on which is regulation is premised is confidential”
and whether or not its substance or timing remains confidential or is disclosed. Pet.
App. 29a. The information held by CMS had no economic value to CMS and could
not be considered “property” or a “thing of value” just because it kept the
information confidential. Pet. App. 29a-30a.
17

The Second Circuit denied rehearing and rehearing en banc on April 10,
2020. Pet. App. 32a. On July 14, 2020, following this Court’s decision in Kelly, the
Second Circuit stayed its mandate.
REASONS FOR GRANTING THE WRIT
Each ruling in this single case constitutes an unprecedented and
breathtaking expansion of criminal liability based on the exchange of information.
The Second Circuit’s expansion of the general “fraud” statutes to criminalize
tipping and trading on information that is not based on a breach of duty of
confidence for a personal benefit sweeps aside decades of careful Supreme Court
jurisprudence delineating the elements of insider trading. The panel majority’s
extension of the meaning of “property” for purposes of the criminal fraud and
conversion statutes to include government regulatory information is directly
contrary to this Court’s holding last term in Kelly that the government’s regulatory
right to exclude and control does create a “property” interest. Further, it
contravenes decades of precedent restricting the judicial expansion of criminal
liability to vindicate claims of corruption outside the bounds of statutory offenses.
Moreover, given the pre-eminence of the Southern District of New York in
prosecuting insider trading cases, this decision will have an outsized impact on the
legal landscape. Either of these rulings, if left standing, will have enormous impact
18

on freedom of information and speech, the relationship between government and
constituents, and free exchange of information in the securities industry. This case
and the rulings obtained by the government here represent extreme prosecutorial
overreach of the kind this Court has curtailed. See, e.g. Skilling, 561 U.S. at 409411; McDonnell, 136 S. Ct. 2355; McNally, 483 U.S. 350.
Petitioner’s co-defendants Huber and Olan have filed a petition for certiorari
in this case and petitioner adopts herein its reasons for granting the writ in this
case. The arguments made by Huber and Olan apply equally to Blaszczak.
I.

The Second Circuit’s Ruling that Government Regulatory
Information Constitutes Government “Property” and a “Thing of
Value” Conflicts With This Court’s decisions in Cleveland and
Kelly and Greatly Expands Criminal Liability Without an Act of
Congress.
In Cleveland, this Court ruled that a state gaming license is not “property”

under the federal fraud statutes and therefore lying to obtain such a license is not
federal fraud. 531 U.S. at 15. The Court reasoned that the state government’s “core
concern” in licensing was “regulatory,” not economic, and its licensing decisions
“implicate the government’s role as sovereign, not as property holder.” Id. at 24.
The Court explained that the government’s “intangible rights of allocation,
exclusion, and control amount to no more and no less than [the State’s] power to
regulate,” and do not create a property interest. In refusing to extend the federal
19

fraud statutes beyond “traditional concepts of property,”id. at 24, the Court acted
within its long tradition of narrowly construing the fraud statutes to restrain the
government overreach through novel theories beyond the statutory mandate. It
followed McNally, 483 U.S. 350, which construed the mail fraud statute narrowly
to protect only property rights, not the right to “honest services.” Cleveland, at 531
U.S. at 25. That tradition has continued since Cleveland. See, e.g. McDonnell, 136
S.Ct. at 2373 (rejecting the “‘standardless sweep’ of the government’s reading” of
the federal bribery statute, which would subject public officials to “prosecution,
without fair notice, for the most prosaic interactions.”); Skilling, 561 U.S. at 409411 (construing narrowly again the “honest services” amendment to the
fraud statutes to reach only bribery and kickbacks, and not the government’s theory
of “undisclosed self-dealing by a public official or private employee”).
Yet the Second Circuit majority treated Cleveland as a kind of outlier, that
“while []remaining good law,” had “only a modest effect on the existing legal
landscape” and was essentially limited to its facts. Instead, it oddly relied on
Carpenter, 484 U.S. at 25-26, which ruled that “confidential business
information”– the “stock in trade” of a newspaper’s prepublication articles that it
sells -- can be property. (Emphasis added). Carpenter has no bearing on
government regulatory information, and its confidential business information was
20

distinguished in Cleveland on that very ground. See 531 U.S. at 19, 23.
With the Kelly decision last term, this Court reaffirmed in no uncertain terms
Cleveland and its principle that government regulatory matters are not the subject
of “property” rights. The Court held that a scheme by public officials to close
traffic lanes on a bridge for political retribution, and create a sham study justifying
the closure, was not fraud because the object of the scheme was not property. 140
S. Ct. 1565. Rejecting the government’s theories that taking control of the bridge
was a taking of government property and that the employee costs of the lane
closings deprived the government of property, Kelly directly relied on Cleveland
and amplified its reasoning on “the distinction between property and regulatory
power.” Kelly, 140 S. Ct. at 1572. No matter how deceptive the lane closing
scheme was, its aim was not property but the misuse of regulatory rights of
“allocation, exclusion, and control.” Id. at 1572-73.
The Court contrasted interference with the government’s regulatory rights
with fraud to obtain government property. To be fraud, the very object of the
scheme must be to obtain something of economic value to the government, like
schemes to use the services of government employees for personal enrichment, for
example for home renovations. Id. at 1573. Although employee time was used in
Kelly to create the sham traffic study that justified the lane closing, like the costs of
21

issuing the license in Cleveland, it was “incidental to “and not the object of the
scheme, and could not turn the plan into a scheme to obtain property from the
government. Id. at. 1573-74.
Citing McNally and Cleveland, the Court identified the fundamental problem
with expansive theories of property: “If U.S. Attorneys could prosecute as property
fraud every lie a state or local official tells[], the result would be – as Cleveland
recognized – “a sweeping expansion of federal criminal jurisdiction.” Kelly, 140 S.
Ct. at 1574. “And if those prosecutors could end-run Cleveland just by pointing to
the regulation’s incidental costs, the same ballooning of federal power would
follow.” Id.
That is exactly what happened in this case. Although Cleveland had been on
the books for 20 years, the government convinced two courts that it did not really
have to be followed and that government regulatory information could be
considered property based on CMS’s “right to exclude” the public from its
information and its use of employee resources to maintain confidentiality. Pet.
App. 33a-34a. Kelly makes abundantly clear that neither of these factors turn
information about future regulatory plans into government “property.” CMS’s
decisions about what to keep confidential and what to reveal are “quintessential”
regulatory decisions, Kelly, 140 S. Ct. at 1572-73, like the decision whether to
22

issue a state license in Cleveland, and involve no property rights.
The Second Circuit’s expansive ruling on the meaning of property under the
fraud statutes directly contravenes Cleveland and Kelly and allows open-ended
prosecution of government leaks as fraud and conversion. Any leak of confidential
government information that violates the agency’s “right to exclude” and frustrates
its employees’ efforts to keep the information confidential – in other words, any
leak – can be prosecuted as fraud or conversion. As this Court warned in Cleveland
and Kelly, such a result would be “a sweeping expansion of federal criminal
jurisdiction” without Congressional action. Only this Court can stop it by granting
review.
II.

The Second Circuit’s Ruling that the Established Insider Trading
Elements Do Not Apply to Insider Trading Fraud Charged Under
Title 18 Conflicts With Decades of This Court’s Precedents and
Dramatically Expands Criminal Liability For Information
Sharing.
For decades, this Court has held that fraud by insider trading requires proof

that the tipper breached his duty of confidence in exchange for a personal benefit
and that the tippees knew that. Salman v. United States, 137 S.Ct. 420, 427 (2016);
Carpenter v. United States, 484 U.S. 19, 27-28 (1987); Dirks, 463 U.S. 646.
Without those elements, there is no fraud. There is “no general duty” to “forgo
actions based on material nonpublic information.” Chiarella, 445 U.S. at 233. Such
23

a duty arises only from a fiduciary duty and fraud occurs when a fiduciary breaches
his duty of confidence for a personal benefit. O’Hagan, 521 U.S. at 654 (“A
fiduciary who ‘[pretends] loyalty to the principal while secretly converting the
principal’s information for personal gain,’...‘dupes’ or defrauds the principal”).
The “test” for such a breach “is whether the insider personally will benefit ... from
his disclosure. Absent some personal gain, there has been no breach of duty.”
Dirks, 463 U.S. at 662. These elements, and the requirement that tippees know of
the breach for a personal benefit, were reaffirmed in Salman, 137 S. Ct. at 427.
These elements are not spelled out in any statute but are required by this
Court to establish “fraud” by insider trading, which is typically charged under Title
15 and SEC Rule 10(b), which proscribes any “device, scheme, or artifice to
defraud,’ or “fraud or deceit,” “in connection with the purchase or sale” of
securities. 18 U.S.C. § 1343, the wire fraud statute, similarly proscribes using the
wires to commit any “scheme or artifice to defraud” or “involving false or
fraudulent pretenses, representations, or promises.” 18 U.S.C. § 1348, enacted in
2002 in the wake of the Enron accounting frauds, proscribes “a scheme or artifice”
“to obtain by means of false or fraudulent pretenses, representations, or promises,
any money or property” in connection with the purchase or sale of securities. These
statutes all proscribe general “fraud.” What makes tipping or trading on tipped
24

information “fraud” under any of these statutes are the same elements: a breach of
duty of confidence by the tipper for a personal benefit and knowledge of that by
the tippees. See Dirks, 463 U.S. at 661-664; Chiarella, 445 U.S. at 230, 234-35;
O’Hagan, 521 U.S. at 653-55.
This Court’s decisions make clear that the elements of breach of duty of
confidence for a personal benefit are required to prove any fraud by insider trading,
whether under Title 15 or 18. In Carpenter, this Court affirmed the wire and mail
fraud convictions under an embezzlement theory of a Wall Street Journal reporter
who tipped his employer’s confidential business information to others – the
contents of an article before it was published – in exchange for a share of their
trading profits. 448 U.S. 19. The tipping constituted “fraud” because “a person
who acquires special knowledge or information by virtue of a confidential or
fiduciary relationship with another is not free to exploit that knowledge or
information for his own personal benefit.” Id. at 27-28. O’Hagan extended the
embezzlement theory to Title 15 and held that the elements – “converting the
principal’s information for personal gain”– are the same for both Title 15 and Title
18 because they are “fraud of the same species.” 521 U.S. at 653-54.
The Second Circuit’s ruling that insider trading charged under Title 18 can
be proven without establishing a breach of confidence for a personal benefit – the
25

essence of insider trading fraud – contravenes all of these precedents. Moreover, it
makes no sense that virtually identical proscriptions of a “scheme to defraud”
should require markedly different levels of proof. The meaning of “fraud” cannot
change from one statute to another. Statutory terms should be construed
consistently. See, e.g., Pasquantino v. United States, 544 U.S. at 355 n.2; Neder v.
United States, 527 U.S. 1, 21 (1999); Carpenter, 484 U.S. at 25 n. 6; Envtl Def. v.
Duke Energy Corp., 549 U.S. 561, 574 (2007).
The Second Circuit’s radical departure from precedent sweeps away decades
of careful jurisprudence delineating the elements of insider trading liability – an
offense never specifically defined by Congress and with which care must be taken.
Its reasons for such radical reinvention of insider trading liability do not withstand
scrutiny, especially given the stakes. The Second Circuit notes that the personal
benefit test is not in the text of any of the fraud statutes, but is a “judge-made
doctrine” and concludes that Dirks is limited to Title 15 because it is premised on
Congress having enacted the title 15 fraud provisions with the limited ‘purpose of
*** eliminat[ing] [the] use of inside information for personal advantage.’ Pet. App.
17a-18a. It then concludes that the embezzlement theory recognized in Carpenter
requires no proof of personal benefit because it is impossible to embezzle without
committing fraud. Pet. App. 18a. Everything about this is wrong and the analysis is
26

backward.
None of the fraud statutes spells out the insider trading elements; they are
equally general about proscribing “fraud.” This does not mean that what constitutes
“fraud” varies from statute to statute. Dirks spells out what is required to establish
“fraud” on the basis of tipping or trading on nonpublic information: Fraud requires
a “breach of duty” and [w]hether disclosure is a breach of duty” “depends in large
part of the purpose of the disclosure.” 541 U.S. at 662. “[T]he test is whether the
insider will benefit directly or indirectly from his disclosure. Absent some personal
gain, there has been no breach of duty.” Id. There is no “general duty” to “forgo
actions based on material, nonpublic information.” Chiarella, 445 U.S. at 233. It is
only the breach of duty, proven by the personal benefit test, that makes the use of
inside information fraud.
The Second Circuit’s theory that embezzlement does not require proof of
personal benefit is wrong as well and its analysis is circular. The embezzlement in
Carpenter was affirmed as Title 18 fraud based on the employee’s violation of his
fiduciary duty for a share of trading profits. This Court explained: “[A] person who
acquires special knowledge or information by virtue of a confidential or fiduciary
relationship with another is not free to exploit that knowledge or information for
his own personal benefit.” 484 U.S. 27-28 (Emphasis added). In applying the
27

embezzlement theory to Title 15 – “fraud of the same species” as wire fraud-- this
Court reiterated that it is the breach of fiduciary duty for personal benefit that
“constitutes fraud akin to embezzlement,” O’Hagan, 521 U.S. at 654 (“A fiduciary
who ‘[pretends] loyalty to the principal while secretly converting the principal’s
information for personal gain,’ ... ‘dupes’ or defrauds the principal.”)
The Second Circuit’s ruling allows prosecutors to bypass the longestablished requirements of insider trading fraud by simply charging another
version of “fraud” under Title 18 that does not require such proof. This ruling
makes no sense and it places open-ended discretion in the hands of prosecutors.
Without proof that information was tipped for a personal benefit, the linchpin of
breach of duty, any sharing of information can be prosecuted as fraud. This
decision violates this Court’s rule that criminal liability under the fraud statutes
may not be expanded unless “Congress has spoken in clear and definite language.”
McNally, 483 U.S. 359-60. Particular care should be taken when dealing with
insider trading, an offense that has never actually been proscribed by Congress.

28

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

COLLEEN P. CASSIDY
Counsel of Record
Federal Defenders of New York, Inc.
Appeals Bureau
52 Duane Street, 10th Floor
New York, New York 10007
(212) 417-8742
colleen_cassidy@fd.org
September 4, 2020

29

